<html>
<title> - ETHIOPIA IN CRISIS: U.S. STRATEGY AND POLICY RESPONSE</title>
<body><pre>[Senate Hearing 117-50]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-50

                   ETHIOPIA IN CRISIS: U.S. STRATEGY 
                          AND POLICY RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              MAY 27, 2021

                               __________


       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                  Available via http://www.govinfo.gov

                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-282 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------   


                 COMMITTEE ON FOREIGN RELATIONS        

             ROBERT MENENDEZ, New Jersey, Chairman        
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut      MITT ROMNEY, Utah
TIM KAINE, Virginia                  ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts      RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey           JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland           MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee
                 Jessica Lewis, Staff Director        
        Christopher M. Socha, Republican Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     1

Risch, Hon. James E., U.S. Senator From Idaho....................     3

Godec, Hon. Robert F., Acting Assistant Secretary of State, 
  Bureau of African Affairs, U.S. Department of State, 
  Washington, DC.................................................     5
    Prepared Statement...........................................     8

Charles, Sarah, Assistant to the Administrator, Bureau for 
  Humanitarian Assistance, United States Agency for International 
  Development, 
  Washington, DC.................................................     9
    Prepared Statement...........................................    11

              Additional Material Submitted for the Record

Responses of Ambassador Robert F. Godec to Questions Submitted by 
  Senator Ben Cardin.............................................    31

Responses of Sarah Charles to Questions Submitted by Senator Ben 
  Cardin.........................................................    33

                                 (iii)

 
                   ETHIOPIA IN CRISIS: U.S. STRATEGY 
                          AND POLICY RESPONSE

                              ----------                              


                         THURSDAY, MAY 27, 2021

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:09 a.m. in 
room SR-301, Hon. Robert Menendez, chairman of the committee, 
presiding.
    Present: Senators Menendez [presiding], Cardin, Coons, 
Murphy, Kaine, Booker, Risch, and Romney.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Let me thank our colleagues and our witnesses for their 
patience. The ranking member and I were discussing a couple of 
items.
    We have a vote going on as we speak. So I think what we 
will do is I will have myself and the ranking member do our 
opening statements. We will recess for--it is one vote at this 
point--for the vote, and then we will come back and begin our 
witness statements.
    So let me start by thanking today's witnesses for 
testifying about the ongoing crisis in Ethiopia. For decades, 
Ethiopia has been a key security partner for the U.S. and the 
Horn of Africa and Red Sea corridor, a region of tremendous 
strategic significance.
    New Jersey is also home to a proud Ethiopian Diaspora 
community that remains actively engaged with current events. 
Until recently, many of us were hopefully watching a country 
that appeared to be in the midst of a historic transition to 
democracy after years of authoritarian rule.
    Now, a brutal war in Tigray internationalized by Eritrea's 
participation, violence, and insecurity in other parts of the 
country and rapidly closing political space have given rise to 
the possibility that Ethiopia is instead on a trajectory 
towards state collapse.
    On Tigray, let me be blunt. I see echoes of Darfur. There 
are reports of extrajudicial killings, sexual violence, and 
forced displacement of Tigrayans. Armed actors have looted and 
destroyed health and education installations, attacked refugee 
camps.
    CNN recently reported that armed actors are blocking food 
aid. Aid workers have been murdered. As a result, Tigray now 
appears to be on the brink of famine. All sides are guilty of 
abuses.
    The fragmentary reporting we have indicates that Ethiopian, 
Eritrean, and allied militia have disproportionately been 
responsible for targeting civilians in a manner that is both 
reckless and sinister.
    We appear to be witnessing war crimes and crimes against 
humanity. While the conflict in Tigray is the most alarming and 
graphic illustration of insecurity and ethnic violence in 
Ethiopia, it is far from the only place in the country where 
civilians, including members of Ethiopia's two largest ethnic 
groups, Amhara and Oromo, and other communities are being 
targeted and killed in significant numbers.
    A major force behind much of the unrest gripping the 
country is rapidly closing political space as a result of a 
failed democratic transition. The Prime Minister initiated 
laudable reforms early in his tenure.
    However, momentum has shifted. His government has jailed 
opposition leaders and their supporters, denied them due 
process. On his watch, journalists have been intimidated and 
even killed, and dissent and free speech have been suppressed.
    Unfortunately, the Ethiopian Government has refused to 
pursue the kind of political dialogue that could lead to a 
political consensus about how a new Ethiopia should be 
governed.
    In this environment, there is little hope that Ethiopia's 
June 21 elections can credibly reflect the will of the people.
    I applaud the Administration's focus on this crisis. The 
appointment of Ambassador Feltman as Special Envoy to the Horn 
of Africa sent that important signal. Although we do need to 
have a broader conversation about Special Envoys in general, I 
appreciate this effort thus far.
    Prime Minister Abiy has met our diplomatic initiatives with 
stonewalling, broken promises, and unfilled commitments.
    The Government has failed to provide unfettered 
humanitarian access, secure the withdrawal of Eritrean troops, 
or commit to a political solution to the conflict, and 
throughout it has engaged in misrepresentation and 
disinformation, including on the origins of the crisis in 
Tigray, the human rights and humanitarian situation on the 
ground, and the active involvement of foreign troops in the 
conflict.
    It has become abundantly clear that events on the ground 
call for a robust response from the U.S., the region, and the 
international community, one that conveys an unequivocal 
message.
    We will not tolerate war crimes, crimes against humanity, 
and ethnic violence. We must pursue accountability no matter 
how high up the chain of command responsibility lies.
    I support the Administration's announcement of visa 
sanctions and a pause in some assistance. We should also impose 
targeted financial sanctions on individuals perpetrating 
conflict, use our voice and vote at international financial 
institutions to oppose all funding that does not directly 
support the basic needs of the Ethiopian people, and ensure 
that Ethiopian troops currently operating in Tigray who may be 
implicated in war crimes are not deployed as U.N. peacekeepers.
    In addition, the Administration should begin marshaling 
international support for arms embargoes so that the weapons of 
war fueling this disastrous crisis can be taken off the table.
    We have strategic interests in partnership with Ethiopian, 
and its leaders will not be pleased by these actions.
    The pursuit of our strategic interests at the expense of 
the Ethiopian people flies in the face of core American values 
and is, ultimately, unsustainable.
    With that, let me turn to the distinguished ranking member, 
Senator Risch, for his statement.

               STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you, Mr. Chairman.
    Ethiopia is a vital and strategic, security, economic, and 
regional partner whose relationship did improve significantly 
with the United States under Prime Minister Abiy's Government.
    The historical political transition in 2018 that ushered 
Abiy into power was initially met with great optimism, not just 
from the United States but also the world.
    The promise for Ethiopia's democratic transition is still 
possible, but recent events in both Ethiopia and the wider 
region, as well as global challenges like the COVID-19 pandemic 
and the resulting economic shocks, have complicated Ethiopia's 
journey.
    In particular, the ongoing war in Tigray, which began last 
November, has not just eroded U.S. optimism in Ethiopia's 
democratic future but has instilled deep concerns that 
Ethiopia's economic and political transition is not for every 
Ethiopian.
    This war and its aftershocks have exposed deep divisions in 
Ethiopian society, and worse, has reignited possibilities of 
our greatest fears for this vital country, anchoring the Horn 
of Africa region.
    I am horrified by what we are witnessing in Tigray and what 
was initially termed by the Ethiopian Government as a law 
enforcement operation.
    This operation has displaced millions and left millions 
more in need of urgent humanitarian assistance. The war has 
inflamed inter-communal violence, seen mass killings, 
widespread use of rape as a weapon, targeted destruction of 
livelihoods, and other horrifying cases of human rights abuses.
    It has also caused a large displacement of persons, which 
has led to a massive refugee flow, primarily into Sudan.
    This conflict has also impacted peacekeeping missions in 
Sudan and Somalia, inflamed tensions on Ethiopia's borders, and 
forced regional states to pick sides, not just regarding the 
Tigray war but also the crisis over the filling of Ethiopia's 
Grand Ethiopian Renaissance Dam, also known as GERD.
    The war in Tigray is a threat to not only the future of the 
Ethiopian state and the wider region, but also to the 
strategic, economic, and security interests of the United 
States.
    Increased instability on the Horn of Africa, particularly 
in Ethiopia, further aggravates what is already a volatile 
region wracked with crisis in countries undergoing fragile 
transitions.
    Such instability also undermines vital U.S. 
counterterrorism efforts. Countries like China, Russia, Turkey, 
and others in the Gulf are actively scrambling over access to 
resources in security, influence, and power centers on the Horn 
of Africa and elsewhere on the continent, of course.
    At the end of the 116th Congress, I introduced a resolution 
with Senator Cardin calling for a peaceful resolution to the 
Tigray conflict.
    We reintroduced an updated version of the resolution this 
Congress, which passed this committee in late March and moved 
unanimously out of the full Senate just last week.
    While Ethiopia's transition faces significant challenges, 
passing this resolution sent an important bipartisan signal to 
Ethiopia, our allies, and our own Government that the 
withdrawal of Eritrean forces, the cessation of hostilities in 
Tigray, and getting Ethiopia back on track with its democratic 
transition are priorities for the United States Senate and the 
United States Government.
    Every day we learn of new details reflecting the true 
horror and violence occurring throughout Ethiopia. The 
Ethiopian Government has either dismissed such reports as false 
or provided assurances to our diplomats and officials that the 
situation is not as bad as it seems.
    Sometimes the Government will even commit to conducting 
investigations and holding accountable anyone found to have 
committed a crime. That is a commitment only.
    We have seen this script before in places like Rwanda, 
Darfur, and Zimbabwe. Leaving matters of accountability up to 
one of the participants in this conflict will not stop the 
atrocities and suffering.
    The United States and its allies must continue to 
transition and do so quickly from a position of hands off 
diplomacy, like encouragement, engagement and talking to the 
Ethiopian and Eritrean governments to hands-on action.
    Even though it took longer than I would have liked, I am 
pleased by this Administration's recent actions to impose visa 
sanctions on those carrying out those atrocities and thwarting 
vital humanitarian assistance.
    I am also glad to see limits placed on foreign aid and 
using our voice and vote at multilateral financial institutions 
to send a clear message to the Ethiopian Government that what 
is happening in their country is unacceptable.
    I encourage the Administration to continue exploring every 
option to end the war in Tigray, to continue building a 
coalition of like-minded allies, to pursue justice and 
accountability, including Global Magnitsky sanctions, and to 
work with Ethiopian people to help get their democratic 
transition back on track, starting with salvaging their 
upcoming general elections on June 21.
    I look forward to a robust discussion on these issues. 
Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch. So there is one 
vote. The committee will recess subject to the call of the 
chair, and when we return we will introduce our two 
distinguished witnesses, and I look forward to their testimony.
    With that, this hearing is subject to recess.
    [Recess.]
    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order once again.
    With us today on behalf of the Administration is Ambassador 
Robert Godec, the Acting Assistant Secretary for the Bureau of 
African Affairs, who has a long and distinguished career in the 
Foreign Service.
    Ambassador Godec previously served as Principal Deputy 
Assistant Secretary and as Deputy Assistant Secretary in the 
Bureau. Prior to these assignments, the Ambassador was Deputy 
Commandant and International Affairs Advisor at the National 
War College and Ambassador to Kenya.
    Ambassador Godec also served as the Principal Deputy 
Coordinator for counterterrorism in the Bureau of 
Counterterrorism at the Department of State and our Ambassador 
to Tunisia.
    Ambassador Godec is joined this morning by Ms. Sarah 
Charles, the Assistant to the Administrative USAID's Bureau for 
Humanitarian Assistance.
    Prior to that, Ms. Charles was the Senior Director for 
policy and advocacy for the International Rescue Committee 
where she led efforts to reform the humanitarian aid system and 
promote policies to improve the lives of refugees and other 
conflict-affected people.
    Her previous positions include several stints on the White 
House National Security Council, including as Director for 
Humanitarian Affairs, acting Senior Director for Strategic 
Planning, and before joining the NSC, Ms. Charles covered the 
Middle East for USAID's Office of Transition Initiatives.
    Welcome to both of you. Thank you for the insights I think 
you will provide the committee. Your full statements will be 
included in the record. We ask you to summarize it in about 5 
minutes so we can have a conversation with you.
    Ambassador, you will be recognized first. Please proceed.

 STATEMENT OF THE HONORABLE ROBERT F. GODEC, ACTING ASSISTANT 
SECRETARY OF STATE, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Ambassador Godec. Mr. Chairman, Ranking Member, 
distinguished members of the committee, thank you for the 
opportunity to speak with you today about Ethiopia, a country 
with a rich history, but that today is wracked by inter-
communal violence that threatens to undermine its national 
unity and destabilize the Horn of Africa.
    The United States is committed to building an enduring 
partnership with the Ethiopian people, but that only adds to 
the grave concern that we all share about the crisis in the 
country, particularly in Tigray.
    The violence in Tigray is horrifying. It shocks the 
conscience. Since the conflict began in November, thousands 
have died with thousands more injured. We estimate that there 
are approximately 2 million internally-displaced persons, 
63,000 refugees, and 5.2 million people in urgent need of 
assistance.
    The United States condemns in the strongest terms the 
brutal killings, sexual violence including gang rape, forced 
removals, wanton destruction of civilian property. We condemn 
all of the human rights violations, abuses, and atrocities that 
have taken place in Tigray.
    The atrocities have been committed by all of the armed 
actors including the Ethiopian National Defense Force, Amharan 
Regional Forces, Eritrean Defense Forces, and to some but a 
lesser degree by the Tigray People's Liberation Front.
    In western Tigray, security forces belonging to the Amhara 
regional Government are forcing ethnic Tigrayans from their 
homes in what Secretary Blinken has described as acts of ethnic 
cleansing.
    The Eritrean Defense Forces are undertaking a campaign of 
unremitting violence and destruction that amounts to the 
collective punishment of the people of Tigray. The violence, 
abuses, and atrocities are unacceptable. They must stop now.
    Despite statements by the Ethiopian Government that the 
conflict is over, the security situation has worsened in recent 
weeks, exacerbating the dire humanitarian crisis and hindering 
an already difficult response.
    U.S. and U.N. analysis shows that the continuing conflict 
has resulted in a situation close to famine. There are 
confirmed reports of Tigrayans dying from malnutrition and 
starvation.
    Increased fighting at checkpoints, lawlessness, and 
harassment by the warring parties are blocking humanitarian 
movements and putting them at physical risk throughout Tigray. 
The killings of a USAID partner, staff member, and seven other 
humanitarian workers are tragic and we condemn them.
    Since the beginning of the conflict, the U.S. Government 
has worked with international partners to end it. We seek an 
immediate ceasefire, full and unhindered humanitarian access, 
protection of civilians, the withdrawal of Eritrean forces and 
Amharan Regional Forces, a political settlement to the crisis, 
and an independent international investigation of human rights 
violations and abuses and atrocities, and accountability for 
those responsible.
    The Administration is using every available tool to 
alleviate suffering and end the conflict. We have coordinated 
with like-minded partners, regional governments, the African 
Union, and a wide range of other organizations and individuals.
    We have pressed the U.N. Security Council and the U.N. 
Human Rights Council to put the situation in Ethiopia on their 
agendas and to act to end the crisis.
    We have engaged directly with the Ethiopian and Eritrean 
governments at the highest levels, pressing them to end the 
hostilities and to follow through on commitments for the 
withdrawal of Eritrean forces as well as to protect civilians 
and ensure unhindered humanitarian access.
    Multiple calls from the Secretary of State to Prime 
Minister Abiy and Senator Coons' travel to Ethiopia on behalf 
of President Biden resulted in some modest progress, but it is 
far from sufficient. Following his appointment, Special Envoy 
Feltman took a 2-week trip to the region earlier this month in 
an intensive effort to find a durable solution. He will return 
to the region next week.
    While diplomatic efforts have been underway, the 
Administration has also taken stronger steps. In light of the 
human rights situation, we have restricted our foreign 
assistance to Ethiopia.
    We will continue, however, humanitarian assistance and 
other critical programs in health, food security, democracy, 
and human rights. We are withholding support for new lending 
from the multilateral development banks that does not address 
basic human needs and are asking our allies to do likewise.
    The Secretary of State has taken steps to impose visa 
restrictions on Ethiopian and Eritrean Government officials, 
Amhara regional and irregular forces and members of the TPLF 
who are impeding the resolution of the crisis, blocking 
humanitarian access, or committing atrocities.
    Should those stoking the conflict fail to reverse course, 
Ethiopia and Eritrea should anticipate further actions. It 
cannot be business as usual in the face of the violence and 
atrocities in Tigray.
    Tragically, while Tigray is the worst of the ethnic 
conflicts in Ethiopia, it is only one of them. From attacks on 
ethnic Amharans and the Gumuz in Benishangul Gumuz, ethnic 
Oromo and Amharans in Oromia to violence between people in the 
Afar and Somali regions to the multiple conflicts unfolding in 
the Southern Nations, Nationalities and Peoples Region, 
Ethiopia is at a turning point.
    The Government's response of mass arrests, media 
restrictions, human rights violations, and declining political 
space is fueling inter-communal rivalry and imperiling the 
national elections now scheduled for June 21.
    Widespread insecurity, mass displacement, and logistical 
challenges raise serious questions about these elections, and 
the United States has made the decision not to deploy observers 
to monitor them.
    We urge the Ethiopian Government to begin an inclusive 
dialogue of reconciliation to end the deep-rooted conflicts and 
to find a shared democratic path forward. The United States is 
prepared to support such a dialogue.
    Finally, there are the ongoing challenges around the Grand 
Ethiopian Renaissance Dam and the al-Fashaga border area 
between Sudan and Ethiopia.
    On the GERD, the United States believes Egypt, Ethiopia, 
and Sudan's concerns over water security can best be addressed 
through serious negotiations among the parties under the 
leadership of the African Union.
    Both problems pose risks to the regional peace and 
security, and the United States Government is working hard with 
partners to help resolve them.
    As I said at the beginning, the United States is committed 
to a partnership with the Ethiopian people, the country's 
national unity, and stability in the Horn of Africa.
    Mr. Chairman, members, alarm bells are ringing in Ethiopia. 
The risk of protracted and wider conflict is growing, and the 
time for action to prevent it is now.
    In that regard, I want to thank the Congress for the strong 
resolutions and statements that have been issued. They are 
important and may help. The State Department will continue to 
work closely with you to address the crises in Ethiopia.
    I look forward to your questions. Thank you very much.
    [The prepared statement of Ambassador Godec follows:]

            Prepared Statement of Ambassador Robert F. Godec

    Mr. Chairman, Ranking Member, distinguished Members of the 
Committee. Thank you for the opportunity to speak with you about 
Ethiopia--a country with a rich history but that today is wracked by 
inter-communal violence that threatens to undermine its national unity 
and destabilize the Horn of Africa. The United States is committed to 
building an enduring partnership with the Ethiopian people, and that 
only adds to the grave concern we all share about the crisis in the 
country, particularly in Tigray.
    The violence in Tigray is horrifying. It shocks the conscience. 
Since the conflict began in November, thousands have died with 
thousands more injured. We estimate there are approximately 2 million 
internally displaced persons (IDPs), 63,000 refugees, and 5.2 million 
people in urgent need of assistance. The United States condemns in the 
strongest terms the brutal killings, sexual violence including gang 
rape, forced removals, and the wanton destruction of civilian property. 
We condemn all the human rights violations, abuses, and atrocities that 
have taken place in Tigray.
    The atrocities have been committed by all the armed actors, 
including the Ethiopian National Defense Force (ENDF), Amharan regional 
forces, the Eritrean Defense Forces (EDF), and the Tigray People's 
Liberation Front (TPLF). In western Tigray, security forces belonging 
to the Amhara Regional Government are forcing ethnic Tigrayans from 
their homes in what Secretary Blinken has described as acts of ethnic 
cleansing. The Eritrean Defense Forces are undertaking a campaign of 
unremitting violence and destruction that amounts to the collective 
punishment of the people of Tigray. The violence, abuses, and 
atrocities are unacceptable. They must stop now.
    Despite statements by the Ethiopian Government that the conflict is 
over, the security situation has worsened in recent weeks, exacerbating 
the dire humanitarian crisis, and hindering an already difficult 
response. U.S. and U.N. analysis shows the continuing conflict has 
resulted in a situation close to famine. There are confirmed reports of 
Tigrayans dying from malnutrition and starvation. Increased fighting, 
checkpoints, lawlessness, and harassment by the warring parties are 
blocking humanitarians' movements--and putting them at physical risk--
throughout Tigray. The killings of a USAID partner staff member and 
seven other humanitarian workers are tragic and we condemn them.
    Since the beginning of the conflict, the U.S. Government has worked 
with international partners to end it. We seek an immediate ceasefire; 
full and unhindered humanitarian access; protection of civilians; the 
withdrawal of Eritrean forces and Amhara regional forces; a political 
settlement of the crisis; and an independent, international 
investigation of human rights violations and abuses, and atrocities; 
and accountability for those responsible.
    The Administration is using every available tool to alleviate 
suffering and end the conflict. We have coordinated with like-minded 
partners, regional governments, the African Union, and a wide range of 
other organizations and individuals. We have pressed the U.N. Security 
Council and the U.N. Human Rights Council to put the situation in 
Ethiopia on their agendas and to act to end the crisis. We have engaged 
directly with the Ethiopian and Eritrean governments at the highest 
levels, pressing them to end the hostilities and to follow through on 
commitments for the withdrawal of Eritrean forces, as well as to 
protect civilians, and ensure unhindered humanitarian access. Multiple 
calls from the Secretary of State to Prime Minister Abiy and Senator 
Coons' travel to Ethiopia on behalf of President Biden resulted in some 
modest progress, but it is far from sufficient. Following his 
appointment, Special Envoy Feltman took a 2-week trip to the region 
earlier this month in an intensive effort to find a durable solution to 
the crisis. He will return to the region next week.
    While diplomatic efforts have been underway, the Administration has 
also taken stronger steps. In light of the human rights situation, we 
have restricted our foreign assistance to Ethiopia. We will, however, 
continue humanitarian assistance and other critical programs in health, 
food security, democracy, and human rights. We are withholding support 
for new lending from Multilateral Development Banks that does not 
address basic human needs and are asking our allies to do likewise. The 
Secretary of State has also taken steps to impose visa restrictions on 
Ethiopian and Eritrean Government officials, Amhara regional and 
irregular forces, and members of the TPLF who are impeding resolution 
of the crisis, blocking humanitarian assistance, or committing 
atrocities. Should those stoking the conflict fail to reverse course, 
Ethiopia and Eritrea should anticipate further actions. It cannot be 
``business-as-usual'' in the face of the violence and atrocities in 
Tigray.
    Tragically, while Tigray is the worst of the ethnic conflicts in 
Ethiopia it is only one of them. From attacks on ethnic Amharans and 
Gumuz in Benishangul Gumuz and ethnic Oromo and Amharans in Oromia to 
violence between people in the Afar and Somali regions to the multiple 
conflicts unfolding in the Southern Nations, Nationalities, and Peoples 
Region, Ethiopia is at a turning point. The Government's response of 
mass arrests, media restrictions, human rights violations, and 
declining political space is fueling inter-communal rivalry and 
imperiling the national elections now scheduled for June 21. Widespread 
insecurity, mass displacement, and logistical challenges raise serious 
questions about these elections and the United States has made the 
decision not to deploy observers to monitor them. We urge the Ethiopian 
Government to begin an inclusive dialogue of reconciliation to end the 
deep-rooted conflicts and find a shared, democratic path forward. The 
United States is prepared to support such a dialogue.
    Finally, there are the ongoing challenges around the Grand 
Ethiopian Renaissance Dam and the al-Fashaga border area between Sudan 
and Ethiopia. On the GERD, the United States believes Egypt, Ethiopia, 
and Sudan's concerns over water security can best be addressed through 
serious negotiations among the parties under the leadership of the 
African Union. Both problems pose risks to regional peace and security 
and the U.S. Government is working hard with partners to help resolve 
them.
    As I said at the beginning, the United States is committed to a 
partnership with the Ethiopian people, the country's national unity, 
and stability in the Horn of Africa. Mr. Chairman, Members, alarm bells 
are ringing in Ethiopia. The risk of protracted and wider conflict is 
growing and the time for action to prevent it is now. In that regard, I 
want to thank Congress for the strong resolutions and statements that 
have been issued. They are important and they help. The State 
Department will continue to work closely with you to address the crises 
in Ethiopia. I look forward to your questions. Thank you.

    The Chairman. Thank you, Ambassador.
    Ms. Charles.

  STATEMENT OF SARAH CHARLES, ASSISTANT TO THE ADMINISTRATOR, 
 BUREAU FOR HUMANITARIAN ASSISTANCE, UNITED STATES AGENCY FOR 
           INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Ms. Charles. Chairman Menendez, Ranking Member Risch, 
distinguished members of the committee, thank you for this 
opportunity to discuss the crisis in Ethiopia, the life-saving 
assistance that USAID is providing, and the ongoing challenges 
that impact our response.
    I also want to thank the committee for its continuous 
engagement, not least of which Senator Coons for his recent 
travel to Ethiopia at the request of President Biden.
    Many of us first learned the word famine in relation to 
Ethiopia nearly 40 years ago. I want to be clear. Without an 
immediate cessation of hostilities, improved humanitarian 
access, and a scale up of assistance, we could again see 
widespread famine in Ethiopia this year, the first time since 
the 1980s.
    In Tigray, after more than 6 months of hostilities, 
approximately 5.2 million people are in need of assistance out 
of a total population of 6 million. Approximately 2 million of 
them are children. As striking as these numbers are, even more 
striking are the lived experiences of people in the region. I 
want to take a moment to share one of their stories.
    Mariam, a pseudonym for a person receiving assistance from 
one of our partners in Tigray, lost 25 members of her family, 
her brother, and recently her 5-month-old baby boy who 
succumbed to malnutrition. Mariam now suffers from extreme 
mental distress due to the trauma she has experienced.
    The grim reality is that there are, roughly, 2 million 
other stories of displacement like Mariam's. In Tigray and 
across the border in Sudan where 63,000 refugees have fled, the 
scale of need is staggering, and averting famine will require 
more than just food assistance. It requires health, nutrition, 
and water and sanitation services to help malnourished bodies 
fight off illness.
    The ongoing fighting has destroyed critical water and 
hygiene infrastructure and caused Tigray's health system to 
collapse. Just 16 percent of hospitals and health centers are 
fully functioning.
    We have also heard devastating reports of abuse by armed 
actors across Tigray. The reports not only speak to widespread 
incidence of rape and other gender-based violence, but of 
systematic attempts to dismantle society and destroy families.
    Some perpetrators are targeting the wives of priests, 
abusing women in front of their families, or using a level of 
violence so brutal that women are left with organ damage.
    The severity of abuse is among the absolute worst I have 
seen in my nearly two decades of humanitarian work. We at USAID 
condemn these abuses in the strongest possible terms.
    In the face of staggering need, the United States has 
responded with significant support and advocacy. We are the 
largest donor to the humanitarian response, providing nearly 
$305 million in humanitarian assistance since the conflict 
began.
    USAID is providing enough food to feed 4 million people and 
treat more than 400,000 women and children suffering from 
malnutrition for 3 months. Our partners will run nearly 60 
mobile health and nutrition units across Tigray and support the 
operation and rehabilitation of 300 health facilities.
    To respond to the egregious use of gender-based violence in 
this conflict, we are providing safe spaces for women and 
girls, training for social workers, psychosocial support and 
case management for survivors.
    However, our assistance will not be enough to avert famine 
in Ethiopia if the parties to the conflict continue to obstruct 
access. Currently, over 1 million people in need are out of 
reach of humanitarian assistance.
    The response is plagued by access constraints imposed by 
the Government of Ethiopia, including restrictions on visas and 
communications equipment for humanitarian staff, both of which 
are critical for our partners' security and ability to sustain 
and expand operations.
    Our biggest challenges are the ongoing hostilities and the 
continued blocking of access by Eritrean Defense Forces, 
Ethiopian National Defense Forces, Amhara Regional Forces and 
others.
    Our partners also report increased hostility and targeting 
of humanitarian workers. By blocking food assistance and 
preventing farmers from planting and harvesting, these actors 
are actively exacerbating the risk of famine in Tigray.
    Lastly, the Tigray response is underfunded, and we continue 
to urge other donors to scale up their assistance to meet unmet 
needs.
    I am honored to be here today to discuss our work and 
underscore the United States' commitment to the people of 
Ethiopia. While our humanitarian assistance can help alleviate 
urgent needs, it will not address the root causes of the 
conflict or ongoing human rights abuses.
    Despite the heroic efforts of local communities and 
humanitarian workers, the trajectory of the crisis in Tigray is 
clear--widespread famine unless the parties to the conflict 
provide unhindered humanitarian access and allow the people of 
Tigray to once again plant.
    We owe it to women like Haben, who was a sesame farmer in 
western Tigray before she was forced to leave her home with her 
husband and three children. She now lives in an overcrowded 
school room with 24 other women and their families.
    She told our partners that without assistance, she and her 
family would have starved. We owe it to Haben's neighbors, a 
million of whom continue to be out of reach of assistance, to 
demand better from the parties to the conflict.
    Thank you for the opportunity to speak with you today. I 
welcome your questions.
    [The prepared statement of Ms. Charles follows:]

                  Prepared Statement of Sarah Charles

                              introduction
    Chairman Menendez, Ranking Member Risch, distinguished members of 
the Committee: thank you for this opportunity to discuss the 
humanitarian crisis in Ethiopia, how the U.S. Agency for International 
Development (USAID) is providing life-saving assistance, and the 
ongoing challenges that impact our response efforts. I also want to 
thank the committee for its attention to and continuous engagement on 
this crisis and, in particular, Senator Coons for his travel to Addis 
Ababa at the request of President Biden and his continued advocacy on 
behalf of the humanitarian community and the people of Ethiopia.
    The gravity of the situation is clear. It is also time sensitive. 
Without an immediate cessation of hostilities, improved humanitarian 
access, and an immediate scale-up of life-saving humanitarian 
assistance, we could see widespread famine occur in Ethiopia later this 
year--a situation the country has not faced since the 1980s.
                   overview of humanitarian situation
    Over the years, Ethiopia has struggled with a confluence of 
recurring acute shocks: drought, seasonal flooding, pest and disease 
outbreaks, and above-average food prices. These ongoing challenges have 
led to chronic and sustained humanitarian needs, which are further 
exacerbated by ongoing conflict.
    In this year alone, nearly 24 million Ethiopians will likely 
require humanitarian assistance--more than 20 percent of the country's 
population--with 13 million needing emergency food assistance through 
July due to ongoing conflict and displacement, the compounding effects 
of severe drought, desert locust infestations, and the COVID-19 
pandemic. Escalating violence in southern Amhara, along the Afar-Somali 
border, and in parts of Oromiya in recent months has resulted in 
significant population displacement and hundreds of civilian deaths.
                                 tigray
    The scale of humanitarian need in Ethiopia's Tigray region is 
particularly staggering. After more than 6 months of hostilities 
between multiple armed actors, including the Tigrayan People's 
Liberation Front (TPLF), Ethiopian National Defense Forces (ENDF), 
Eritrean Defense Forces (EDF), Amhara regional forces, and others, 
approximately 5.2 million people are in need of humanitarian 
assistance, out of a total population of around 6 million. The food 
insecure population is spread over hundreds of rural communities across 
rugged terrain that is larger than the state of Maryland, with 
significant clusters of displaced people among peri-urban and urban 
centers seeking assistance.
    As striking as these numbers are, even more striking are the lived 
experiences of the people in the region. I want to take a moment to 
share some of their stories. When the conflict started, Elias's office 
was looted and most of his belongings were taken. He made the decision 
to flee with his wife and children to find safety. They arrived in 
Mekelle with only what they could carry in a single bag. Mariam 
tragically lost 25 of her family members and friends since the conflict 
broke out, including her brother and her 5-month-old baby boy who 
succumbed to malnutrition. Mariam now suffers from eating disorders due 
to the trauma she experienced. Elias and Mariam both found shelter and 
refuge in centers supported by U.S. partners. The grim reality is that 
there are almost 2 million other stories of displacement like Elias and 
Mariam's.
                      agriculture and livelihoods
    In early April, USAID completed a rapid agricultural livelihoods 
assessment and found that the conflict has severely impacted rural 
communities by eliminating many primary sources of food and income. The 
majority of poor households feed their families through at-home crop 
production, purchasing food at local markets, and the Government of 
Ethiopia's (GoE) Productive Safety Net Programme (PSNP). However, our 
analysis shows that conflict is preventing people from accessing 
markets, farmland, and many services, which limits their ability to 
feed themselves and their families. Traditional casual labor 
opportunities that many people rely on for income, such as on farms or 
construction sites, are virtually non-existent, and income-generating 
activities, like the sale of crops, milk, and livestock, have been 
severely disrupted. The bottom line is that millions of Ethiopians 
cannot feed their families.
    Additionally, because the ongoing conflict has had a devastating 
impact on the agriculture sector more broadly (including through the 
loss of animals for plowing and destruction of nurseries for seeds and 
stores for agricultural inputs), we fear those families will be without 
food for years to come. We are in the middle of the traditional 
planting season. However, many farmers are not able to obtain seeds and 
tools, or have been driven from their land and will not be able to 
plant before the rains come. If the upcoming season is lost, the more 
than 5 million people currently in need of food assistance will need 
help until the October 2022 harvest. Providing this life-saving food 
assistance could cost the humanitarian community upwards of $1 billion.
                              displacement
    Conflict in the Tigray region has also forced almost 2 million 
people from their homes and communities. Around 2 million people are 
displaced within Tigray, and some 63,000 people have fled across the 
border as refugees into Sudan. Many internally displaced people are 
relying on host communities for basic necessities like food and water, 
further straining already limited resources. One of the cities 
experiencing the biggest influx of people displaced by the conflict is 
Tigray's capital city of Mekelle. During recent visits to Mekelle, 
USAID staff noted overcrowded conditions where these displaced 
populations were living, and irregular and uncoordinated assistance. 
Some sites did not have any food, health, gender-based violence 
prevention and response, other protection, or water, sanitation, and 
hygiene (WASH) services. Many of the centers that did have these 
services were experiencing shortages of medicines, food, and supplies 
due to the sheer volume of people in need. If hostilities continue, and 
available food and jobs remain absent in rural areas, we fear that even 
more people will be displaced and need help.
                                 famine
    Earlier, you heard me note how food security and resources in 
Ethiopia have been long-term challenges. The recent conflict has pushed 
the people of Tigray to desperate levels of hunger. Many areas of 
Tigray are currently facing Emergency--Integrated Food Security Phase 
Classification (IPC) 4--levels of food insecurity, and at this level we 
not only expect but are also hearing confirmed reports of Tigrayans 
dying as a result of food insecurity, malnutrition, disease, and 
starvation. USAID analysis, in line with U.N. reporting, suggests that 
the crisis is at a critical tipping point: Famine--IPC 5--could occur 
in 2021 in areas of Tigray if sustained, large-scale, multi-sector 
humanitarian assistance does not reach people in time, and if conflict 
between armed actors continues to disrupt agricultural production and 
livestock and labor markets, which are critical for poor households to 
make ends meet. IPC 5 may in fact have already begun, but the lack of 
access has limited the data collection necessary to make an accurate 
assessment.
    However, let me be clear that food assistance alone will not avert 
a famine in Tigray. Famine prevention requires integrated public 
health, nutrition, and WASH services. Without enough food, clean water, 
and access to basic health and nutrition services, malnourished bodies 
are not able to effectively use nutrients or fight disease. The 
international response must be multi-sectoral and robust if it is to be 
truly effective against the threat of famine.
    As I sit here with you today, people in Tigray do not have those 
life-sustaining resources they need. Due to the ongoing conflict and 
looting, Tigray's health system has collapsed, with only around 16 
percent of hospitals and health centers functioning fully. The rest of 
Tigray's health facilities were looted or occupied by armed actors, 
denying people the basic care they need. This lack of health resources 
not only heightens the risk of famine, it also gravely impacts the 
ability of people in Tigray to receive treatment for illnesses and 
limits health officials' ability to control the spread of infectious 
diseases, including COVID-19.
    In addition to the significant impact on the Tigrayan health 
infrastructure, the conflict has also resulted in the destruction of 
critical safe water and community hygiene infrastructure. Relief actors 
estimate that around 250 motorized water pumping systems in towns are 
out of order due to lack of fuel and electricity, damage, looting, or 
vandalism. The status of approximately 11,000 hand pumps in various 
rural areas is unknown because of ongoing access constraints. As a 
result, many people lack access to clean water and adequate sanitation 
services.
    In addition to lack of food, medical care, and clean water, we have 
also heard devastating reports of abuses by armed actors across Tigray. 
The severity of abuse is among the absolute worst I have seen in nearly 
two decades of humanitarian work. The reports not only speak to 
widespread incidents of rape and other gender-based violence against 
women, but of systematic attempts to dismantle society and destroy 
families. For example, some perpetrators are targeting the wives of 
priests, abusing women in front of their families, or using a level of 
violence so brutal that women are left with organ damage.
    We at USAID condemn these abuses to the strongest degree possible, 
and we are prioritizing support to survivors in our humanitarian 
response. While the full scale of abuses and GBV incidents in Tigray 
may never be truly known, Ethiopian health officials recorded at least 
950 cases of reported sexual assault in the region in March and April 
alone, according to Save the Children, while the U.N. Population Fund 
(UNFPA) projects that approximately 22,500 survivors of sexual violence 
in Tigray will seek clinical care in 2021. Unfortunately, the actual 
numbers are likely far higher than those recorded by health authorities 
due to persistent barriers to accurate reporting, including scarce 
health and legal services, limited staff capacity to dedicate to 
reporting, fear of stigmatization, and risk of further harm.
    These terrible attacks and their long-lasting effects underscore 
our particular concern about the negative effects of the conflict on 
women and children writ large. Women are facing increased safety risks, 
loss of livelihoods, and restrictions on their movement. As the number 
of female-headed households rises and social support networks break 
down due to the conflict, women are also facing increased childcare 
responsibilities. Children are also experiencing rising levels of 
violence and abuse as part of the conflict, suffering from higher rates 
of malnutrition and other health concerns, and around 5,000 of them 
have been separated from their families.
                scaling up the u.s. government response
    USAID's longtime and robust presence in Ethiopia implementing one 
of the largest and most complex portfolios in Africa has enabled a 
swift response to this crisis. In Fiscal Year (FY) 2020, USAID provided 
a total of $716 million in assistance to the people of Ethiopia across 
sectors like agriculture, education, global health, and women's 
empowerment. USAID funding also supports programming to protect human 
rights; promote accountability; counter disinformation, misinformation, 
and hate speech; mitigate conflict in Tigray and other at-risk areas; 
prevent gender-based violence, and promote inclusive governance and 
political processes. However, the crisis threatens the gains that 
Ethiopia has made across these sectors in the last 20 years.
    In the face of staggering humanitarian need due to recurrent acute 
shocks and conflict, the United States has responded with significant 
support and advocacy. In FY 2020, USAID provided more than $650 million 
in humanitarian assistance in Ethiopia, and we anticipate that the FY 
2021 figure may be more than 40 percent higher due to needs stemming 
from the Tigray crisis and ongoing conflict within Ethiopia.
    As soon as the conflict in Tigray started, USAID immediately began 
providing life-saving assistance. The United States is the largest 
humanitarian donor to the Tigray response, providing nearly $305 
million since the conflict began, of which $193 million is for food and 
nutrition assistance. We used our existing programs, including rapid 
response mechanisms, while also adapting to access and logistical 
constraints by pre-positioning in-kind commodities and working with our 
partners to pivot other resources as needed. However, the sheer level 
of the needs and ongoing nature of the crisis necessitated a scale-up 
and additional resources.
    On March 1, USAID deployed a Disaster Assistance Response Team 
(DART) to scale up the U.S. humanitarian response efforts to the 
conflict in Ethiopia's Tigray Region. This expert team has been 
building upon existing USAID humanitarian programs that were in place 
prior to the conflict, and is focused on rapidly scaling our life-
saving efforts to reach even more people. The DART works with other 
humanitarian organizations, international donors, and local community 
groups to assess needs and coordinate assistance to those who need it 
most. USAID's robust and holistic response has focused on nine priority 
sectors: food assistance; WASH; health; nutrition; protection; shelter 
and emergency supplies; emergency agriculture and livestock 
interventions; humanitarian coordination; and logistics support.
    In response to acute food needs across Tigray, USAID is supporting 
the Catholic Relief Services-led Joint Emergency Operations Program 
(JEOP), the United Nations World Food Program (WFP), and other 
humanitarian partners to provide emergency food assistance (including 
U.S.-sourced agricultural products like cereals, pulses, and vegetable 
oil) and U.S.-made specialized emergency nutritious products to 
vulnerable people across the region. USAID has ramped up food 
assistance and is providing more than 206,000 metric tons of food--
enough to feed 4 million people and treat more than 400,000 women and 
children suffering from malnutrition for 3 months.
    As I noted earlier, the continued conflict impacts the children of 
Tigray in the most acute and heartbreaking ways. Since February, our 
partners' health facilities have admitted more than 3,400 children 
suffering from wasting--a life-threatening form of malnutrition. As of 
mid-April, WFP and its sub-partners reached more than 51,000 children 
and pregnant and lactating women with emergency nutrition assistance. 
With USAID support, the United Nations Children's Fund (UNICEF) is also 
distributing nutrition commodities to displaced populations--including 
High Energy Biscuits and ready-to-use therapeutic foods (RUTFs). These 
specialized high-calorie foods are sufficient to meet the daily needs 
of up to 27,000 children younger than 5 years of age who are at risk 
for malnutrition.
    In an environment of ongoing conflict that has devastated all basic 
resources and services, our response must utilize integrated, flexible, 
and mobile service delivery. Over the next 9 months, our humanitarian 
health partners (FHI360, GOAL, IRC, Samaritan's Purse, and World 
Vision) will operate nearly 60 mobile health and nutrition units that 
can be deployed to populations in need throughout Tigray. They will 
also support the operation and rehabilitation of 300 static clinics, 
many of which were damaged or looted during the conflict. We are also 
providing hygiene kits with soap, toilet paper, and sanitary products, 
and supporting hygiene promotion campaigns to help prevent the spread 
of diseases, including COVID-19. FHI 360 programming will also promote 
community organization and outreach focusing on disease prevention and 
other key health messaging.
    Safe shelter and places for displaced families to live are critical 
issues as the conflict continues. Our partners, such as IOM and the 
Ethiopian Red Cross Society, are constructing emergency shelters for 
displaced people. On April 12, USAID airlifted 1,500 rolls of heavy-
duty plastic sheeting from our warehouse in Dubai to contribute to 
emergency shelter efforts. This plastic sheeting will be used to create 
needed walls and roofs of temporary structures, keeping more than 
18,000 people safe from the elements, rather than sleeping outside or 
in crowded community shelters. USAID's partner, the Relief Society of 
Tigray or REST, also provided sleeping mats, blankets, and basic 
household items, including kitchen sets with pots, pans, and cooking 
utensils to assist displaced populations.
    Gender-based violence (GBV) has been one of the most egregious 
weapons of this conflict. USAID has been attuned to this need and 
prioritized protection from the initial days of our response. Our 
current programs include funding for four partners to implement 
protection programming in the region, including GBV prevention and 
life-saving response services to survivors and vulnerable women and 
girls. Specifically, our funding provides psychosocial support for 
women and girls, safe spaces for women and girls, case management for 
survivors, and training for social workers and community case workers. 
We also include programming to address other protection needs brought 
on by the conflict, including community-level psychosocial support to 
address widespread distress and loss, family tracing and reunification 
for separated children, and support to first responders.
    Despite the extensive assistance and resources provided to date, 
the ongoing fighting means that we cannot access many areas where we 
know the needs are the greatest. When security conditions allow and 
armed actors withdraw, USAID is ready to respond to identified needs. 
Our decades of working in Ethiopia, experienced partners and staff on 
the ground, significant assets in the region, and deep relationships 
underpin our readiness and ability to respond. Although the 
humanitarian response resources remain at the ready, the problems of 
unending conflict, proliferation of armed actors, and restricted access 
make the work incredibly difficult. This crisis highlights the need to 
get ahead of the recurring humanitarian crises in Ethiopia--whether 
caused by conflict, climate, or disease outbreaks--and compels us to 
work with our partners on the ground to anticipate, plan for, mitigate, 
and respond to disasters, but also to address the grievances and 
triggers that can lead to violent conflict.
                           challenges remain
    In the last 6 months, USAID has scaled up its response and reached 
millions with live-saving assistance. However, this expansion will not 
be enough to avert famine if insecurity and access restrictions 
continue to significantly hinder our partners' ability to reach people 
in need, and the ability of people in Tigray to resume the activities 
on which they rely for their livelihoods.
    The U.S. Government and its partners recognize the severity of the 
situation. This is why unhindered humanitarian access to populations in 
need has been at the center of ongoing engagement from Senator Coons, 
Senator Van Hollen, Special Envoy Feltman, Secretary Blinken, U.S. 
Ambassador to the United Nations Thomas-Greenfield, and other 
Administration Leaders , as well as Ambassador Pasi's leadership in-
country. It has also underpinned our discussions with the GoE, 
humanitarian partners, fellow donors, and other like-minded countries. 
However, many challenges remain.
                          humanitarian access
    Currently, over 1 million people in need of life-saving 
humanitarian assistance are inaccessible to humanitarians.
    The biggest challenges to reaching people in need are the ongoing 
conflict between armed actors, and obstruction of humanitarian 
operations by armed actors, especially the Eritrean Defense Forces. Our 
implementing partners are also reporting increased hostility toward and 
requirements for humanitarian actors at checkpoints run by EDF, ENDF, 
and Amhara regional forces. For example, we have recent reports of 
armed actors blocking key roads to main population centers like Shire 
town, which hosts nearly half a million internally displaced people. 
Not only are these armed actors preventing assistance to towns like 
Shire, but also further impeding access to more isolated rural areas as 
well. The decrease in the number of food distribution points has 
resulted in people having to travel greater distances to get food, with 
some people walking up to 25 miles to receive food for their families.
    By blocking food assistance deliveries and preventing farmers from 
accessing their agricultural land to plant and harvest, the armed 
actors are actively exacerbating the risk of famine in Tigray. The U.S. 
Government continues to call for an end to these abuses, unimpeded 
humanitarian access, and the full withdrawal of Eritrean and Amhara 
forces from the area. These incidents highlight the need for improved 
civil-military coordination across federal, regional, and local levels 
of Ethiopia, which is key to enabling the safe movement of humanitarian 
supplies and personnel on the frontlines--and getting life-saving aid 
to the people who need it most.
    The GoE's recent designation of the TPLF as a terrorist 
organization is expected to further negatively impact already 
challenging humanitarian operations in TPLF areas, even if the GoE 
grants full exceptions for humanitarian activities. Already, our 
partners have reported security incidents where armed actors have 
accused them of providing assistance to the TPLF. Targeting 
humanitarian workers providing life-saving aid is unacceptable, and we 
fear that our partners will have to limit operations in order to 
protect their staff. USAID is particularly concerned for the food 
security impacts of this decision, especially in remote inaccessible 
areas that are already at greater risk of famine.
    Other access constraints for scaling up the response are due to 
bureaucratic restrictions. The GoE is currently only granting 1-month 
visas for humanitarian workers. This is a major challenge because 
humanitarian staff require extended visas in order to serve in a 
sustained response scale-up. Furthermore, the multiple military actors 
have each implemented their own authorization letter requirements, 
decreasing our partners' ability to get through check-points and easily 
operate across regions. When responding in such rural and insecure 
environments, humanitarian operators require telecommunications 
equipment (including satellite phones and VSATs) to communicate with 
one another, establish distribution sites, or call for help in an 
emergency. Despite 5 months of requests, the GoE has not permitted 
humanitarians to import their own equipment, despite a significant 
shortage in-country. Reliable telecommunications equipment is critical 
for our partners' security and ability to safely expand operations into 
insecure and rural areas, where humanitarian needs are likely to be the 
greatest. Communications across Tigray continue to be poor, which 
limits actors' ability to obtain real-time information and increases 
insecurity for everyone.
                                funding
    Despite growing humanitarian need across sectors, the Tigray 
response continues to be underfunded by the international community. We 
project that there are hundreds of millions of dollars in unmet needs. 
The United States funds a majority of the humanitarian response in 
Tigray. USAID is working with the Department of State to urge other 
donors to rapidly scale up their assistance to support a multi-sector 
response to prevent famine. USAID welcomes recent steps to scale-up 
operations and is further advocating for the United Nations (U.N.) to 
commit additional funding and expert staff to lead and coordinate for 
the duration of the response.
                               conclusion
    I am honored to be here today to discuss our work and underscore 
that the United States remains committed to helping the people of 
Ethiopia. However, while our humanitarian assistance will help 
alleviate urgent needs, it will not address the root causes of the 
ongoing conflict and human rights violations and abuses in Ethiopia. 
Rather, in order to stop the suffering in Tigray, we need an immediate 
end to armed actors obstructing humanitarian access, a cessation of 
fighting, and establishment of dialogue, reconciliation, and 
accountability measures.
    We owe it to women like Haben, who was a sesame seed farmer in 
Western Tigray before she was forced to leave her home with her husband 
and three children due to the conflict. She now lives in an overcrowded 
room within a school with 24 other women and their children, with no 
privacy whatsoever. She told our partners that without food donations 
from individuals and local churches, she and her family would have 
starved.
    Despite the ongoing heroic efforts of the international 
humanitarians and the local communities, the trajectory of the crisis 
in Tigray is clear: current extreme levels of food insecurity and 
malnutrition could turn into widespread famine later this year. This 
can be prevented with an immediate cessation of hostilities, an 
increase in humanitarian access, and the immediate scale-up of more 
life-saving humanitarian assistance. The people of Ethiopia can wait no 
longer for the international community and the GoE to scale up 
assistance and provide unhindered humanitarian access to people in need 
immediately.
    Thank you for the opportunity to speak with you today, and I 
welcome your questions.

    The Chairman. Thank you very much. We will start a round of 
5-minute questions.
    The conflict in Tigray has taken a horrific toll on the 
population, as we have spoken about and heard here, and the 
implications for international peace and security are 
significant.
    Secretary Blinken, at a House Foreign Affairs hearing on 
March the 10th, said there had been ``acts of ethnic 
cleansing'' in western Tigray.
    So, Ambassador, are we witnessing war crimes or crimes 
against humanity in Tigray?
    Ambassador Godec. Thank you, Mr. Chairman.
    The United States, as I said, is horrified by the reports 
of brutal killings, the sexual violence of gang rape, the 
forced removals, wanton destruction, and the acts of ethnic 
cleansing that Secretary Blinken referred to.
    We condemn all of these in the strongest possible terms. 
The U.N. High Commissioner for Human Rights has warned that the 
international community is seeing atrocities that may well 
amount to war crimes or crimes against humanity.
    The patriarch of the Ethiopian Orthodox Church has termed 
the conflict a genocide against the Tigrayan people, and the 
Department of State takes those warnings extremely seriously 
and is pressing all parties to end the conflict.
    The Chairman. So the State Department is not ready to call 
it war crimes?
    Ambassador Godec. Mr. Chairman, we are acutely aware of the 
need to determine whether the conduct meets the legal standards 
for atrocity crimes----
    The Chairman. We are acutely waiting for that 
determination----
    Ambassador Godec. We have indicated----
    The Chairman. --because for many of us we believe, in fact, 
these are war crimes and crimes against humanity. So, and I 
understand the concerns of such a designation. We cannot turn 
blindly away when such things happen in the world.
    So I look forward for the State Department's determination. 
I hope they will come to the right one.
    In addition to visa restrictions and pausing assistance, 
what other measures is the Administration prepared to take to 
respond to the continuing human rights abuses?
    Ambassador Godec. Mr. Chairman, let me just add on the 
previous question that we do have a fact-based review underway 
that is being conducted very quickly, and the Secretary of 
State has the final determination on this.
    With respect to the other actions that we are prepared to 
take beyond the visa restrictions, as I noted in my statement, 
we have suspended much of our assistance, certainly, related to 
economic growth and security assistance.
    We are looking at a range of other sanctions to include 
Global Magnitsky Act sanctions, other potential sanctions that 
would be targeted and directed at individuals or institutions 
that are supporting the ongoing conflict, impeding resolution, 
impeding an end to the conflict or otherwise obstructing 
humanitarian access or committing human rights abuses and 
violations.
    We have made very clear in the secretary's statement and 
previously that if we do not see immediate progress on these 
fronts that we will be imposing additional sanctions--Ethiopia 
and Eritrea can expect further actions.
    The Chairman. Give me a sense and the committee a sense of 
what are the implication for U.S. strategic interests in the 
Horn of Africa should instability in Ethiopia become more 
widespread?
    Ambassador Godec. Obviously, the risk at this moment is 
very large. If the conflict in Ethiopia spreads, it will 
destabilize the entire region. Ethiopia has been a critical 
anchor in the region. They supply peacekeeping troops to some 
missions there in Somalia.
    I think if Ethiopia continues down the road that it is 
going, there is a risk of a massive humanitarian crisis, a 
refugee crisis, and it poses a risk to the wider region as 
well.
    Obviously, the Red Sea area is a critical thoroughfare for 
commerce, and it is potential for a wide area that would be 
destabilized and pose a significant risk to the interests of 
the United States and, obviously, the people of the region.
    The Chairman. Finally, Ms. Charles, your testimony is 
rather riveting. What is the scope and scale of the sexual and 
gender-based violence in Tigray?
    Is the Government trying to suppress information about the 
extent of the use of rape as a weapon of war and what efforts 
are we making to respond to the needs of survivors, given the 
gaps identified by NGOs?
    Ms. Charles. Thank you for that question, Senator Menendez.
    What we are seeing is widespread and systematic targeting 
of women using gender-based violence in ways that really are 
quite horrific, and as I mentioned in my testimony, some of the 
worst instances of gender-based violence I have seen in my 20 
years of humanitarian work.
    We are providing support services for victims of gender-
based violence, including psychosocial care, safe spaces for 
women and girls, training of social workers.
    The U.N. estimates that 22,000 women could seek treatment 
for gender-based violence this year in Tigray. We anticipate 
that that is a significant underestimate of the number of women 
who have suffered from gender-based violence, not least of 
which because of the steps that the parties are taking to block 
access.
    We feel like as much as we are supporting protection and 
support for victims of gender-based violence, the ability of 
our partners to be present and sustain presence throughout 
Tigray, not just in urban centers, is necessary to ultimately 
help provide protection services.
    The Chairman. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    Ambassador Godec, I, like lots of people around here, have 
been visited by all of the parties involved in the GERD and the 
failing of the dam negotiations and the concerns surrounding 
that.
    What are your thoughts as to what the current conditions on 
the ground have done as far as the negotiations to try to come 
to some resolution to that?
    Ambassador Godec. Thank you, Senator.
    So, obviously, there is a substantial effort underway to 
get all of the parties to come to a resolution, to an 
agreement. We do believe that there are like solutions, 
technical solutions, to the concerns that the parties have and 
it would allow, frankly, a resolution of this problem.
    Senator Risch. I am assuming--we talk about the different 
parties involved and have not mentioned the Egyptians, but I 
assume if they get offended by this and get somehow engaged, 
that is going to complicate the situation even worse in the 
area. Am I right or wrong on that?
    Ambassador Godec. I am sorry, Senator. If they----
    Senator Risch. If they get involved----
    Ambassador Godec. Militarily?
    Senator Risch. --militarily or whatever, I guess, is that 
going--I assume that is going to complicate things worse there. 
Is that right?
    Ambassador Godec. Absolutely. Obviously, Senator, you know, 
that would be catastrophic if there were some sort of military 
engagement over this.
    You know, the United States supports an African Union 
process to resolve this dispute. We support the negotiations, 
which are being undertaken by the African Union.
    We are prepared to provide significant support. Special 
Envoy Feltman has already been engaged on this matter. We 
believe, again, that there are solutions to this problem and, 
really, in the first instance, what we would be looking for is 
sort of a two-stage process.
    So, initially, some sort of agreement around the immediate 
concern about the filling that would be likely to happen in 
July, and around which, certainly, the Egyptians and the 
Sudanese have a lot of concerns. Then a second stage that 
really provides a longer-term solution around the water and its 
use and the dam.
    So we are working very hard on this, but it does need to be 
a peaceful resolution.
    Senator Risch. My sense is in listening to the parties, 
some are more enthusiastic about the African Union involvement 
than others. Also, some of them seem to be begging for our 
assistance to get more engaged in this than what we are. Am I 
correct on that?
    Ambassador Godec. Yes, you are correct on that. I think 
what I would say, Senator, is the challenge is that, again, 
there are kind of technical solutions to the issues that the 
parties raise, but there is an absence of political will.
    These differences can be bridged, but the parties, all of 
them, have to be prepared to come to the table to reach a 
reasonable agreement.
    There are differences in the view, obviously, between the 
various parties about our involvement, about the African Union 
involvement, and----
    Senator Risch. Do you think more involvement on our part 
would be helpful or not?
    Ambassador Godec. I think our involvement is very 
important, Senator. I think that, you know, we can provide both 
technical expertise, for example, on best ways to operate dams 
or water use or other things that would be helpful, and so we 
have sought to do that.
    Also, we have, frankly, sought to provide some support to 
the African Union in its mediation efforts. So I think our 
involvement is important.
    Senator Risch. Thank you. I appreciate that.
    Ms. Charles, the elections that are supposed to take place 
late in June, we, the United States, has been pressing to see 
that they are held and held appropriately.
    Having said that, listening to what I hear about what is 
going on, particularly in the countryside, do you think that 
those elections are going to have the kind of credibility that 
are needed after the fact?
    Ms. Charles. Thank you, Senator Risch.
    I will let Ambassador Godec speak to the credibility of the 
elections.
    Ambassador Godec. Senator, we are very seriously concerned 
about the upcoming elections. There are a number of logistical 
issues around the conduct of them.
    Frankly, in many respects, they are not prepared 
logistically. There are also concerns about the political space 
that the various parties, that others in Ethiopia, have had to 
carry out the elections.
    We have expressed our concerns quite clearly to the 
Government. You know, many of the specific logistical concerns 
I will just mention were quite well documented, I think, in the 
IRI NDI report that just came out.
    Our view is that what really is critical here is that there 
be an inclusive dialogue started in Ethiopia to address the 
underlying issues. One election is not going to resolve these 
problems.
    There are serious doubt about its credibility and what we 
need to see is a long-term effort to address the underlying 
tensions between the communities, and without that, I think the 
problems will continue and worsen in the country.
    Senator Risch. Thank you. I appreciate that. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Risch.
    I understand we have Senator Cardin virtually with us.
    Senator Cardin. Thank you, Mr. Chairman. I thank both of 
our presenters for their incredible service. I know this is 
extremely difficult and I know it is very challenging just to 
be a witness to what is happening in Ethiopia.
    So, Mr. Ambassador, you talked about the United States 
expressing its objection in the strongest possible terms to the 
violence that is taking place, but I think action speaks louder 
than words and I think Senator Menendez's point about the 
determination of war crimes or crimes against humanity is a 
clear position for the United States.
    So I would just urge the Administration as quickly as 
possible to complete its review, and I hope the outcome is very 
clear to the international community about the atrocities that 
are taking place in Ethiopia.
    I want to drill down on your statement about documenting 
and holding accountable those that are responsible for these 
atrocities. Too often, we allow the documentation to be lost 
and too often we compromise accountability in the sake of 
getting parties together to communicate.
    Obviously, the number-one priority is to end the 
atrocities, to end the violence, and to provide humanitarian 
assistance to the population.
    For this circumstance to not repeat itself as often as we 
have seen around the world we do have to have a full 
documentation and there needs to be accountability.
    So what assurances can you give this committee that the 
United States will use its influence to make sure we have a 
full accounting, full transparency, and accountability?
    Ambassador Godec. Thank you, Senator.
    I can assure you that the United States Government is going 
to use its voice and the tools that are available to it to hold 
everyone responsible for atrocities, prolonging the conflict, 
interfering with humanitarian supplies to account. We have been 
very clear about that, not just through statements but now, 
obviously, taking steps, for example, the visa restrictions 
that the secretary has imposed.
    It is good and we welcome the fact that the Office of the 
High Commissioner for Human Rights, the U.N., and the Ethiopian 
Human Rights Commission have undertaken a review and are going 
to prepare a report on the human rights violations that have 
taken place.
    Their work has begun. They are on the ground in Ethiopia. 
That project will take about 3 months. It is not going to be, 
ultimately, a criminal investigation.
    It is going to be a documenting of what has happened. It is 
critically important and it is a critical first step toward 
holding people to account for what they have done, holding 
those who have committed crimes to account.
    What will be important is another step on transitional 
justice to really, again, hold those people responsible to 
account, and that is something we will also commit to working 
on and it is important.
    Ultimately, the only way to stop these things from 
happening, whether it is in Ethiopia or anywhere in the world, 
is to hold those responsible accountable. So we are committed 
to doing that.
    Senator Cardin. Oh, I agree with that statement. It is 
chilling. Ms. Charles, your testimony is chilling that we may 
have, again, a conflict-induced famine in Ethiopia in which 
people are going to die as a result of the activities of those 
that are abusing the rights of others.
    So is there a time schedule in regards to the review on 
either war crimes or crimes against humanity? That is a term 
that the international community fully understands and 
recognizes, and U.S. leadership here is going to be critically 
important.
    Do we have a time frame as to when we can expect that 
review to be completed?
    Ambassador Godec. Senator, the review is ongoing even as we 
sit here today. The final decision on that is the Secretary of 
State's. I cannot give you a specific timeline. I can promise 
you we will continue the review and make a decision.
    Senator Cardin. Can we have your commitment that you will 
keep this committee informed as to that process and the likely 
timeframe in which a decision will be made?
    Ambassador Godec. I do commit to that, Senator.
    Senator Cardin. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Chairman Menendez and Ranking 
Member Risch, and I just want to open by saying how 
appreciative I am for your personal active engagement to have a 
full committee hearing on this topic, to have clear and 
forceful public statements and active diplomacy from the 
Administration, and your editorial, jointly with the chairman 
of the House Foreign Affairs Committee, was very forceful and 
very clear about the path forward and challenges Prime Minister 
Abiy and the leadership of Ethiopia to take steps now to change 
course and lays out what might happen if that is not the case.
    Ambassador Godec, great to see you again. I have enjoyed 
serving with you, knowing you for many years, and greatly 
appreciated the chance to travel to Ethiopia with you and Ms. 
Charles. Thank you for your service at USAID and your work to 
address the humanitarian crisis in Tigray.
    As has been remarked, I traveled to Ethiopia in March 18 to 
March 22 as a personal emissary of our President to speak with 
Prime Minister Abiy and to convey President Biden's grave 
concerns about the conflict in Tigray and other regional 
challenges--the GERD, al-Fashaga, border disputes, and the 
situation within Ethiopia, violence in other areas but, in 
particular, the humanitarian crisis in Tigray, the presence of 
Eritrean troops, the lack of accountability for human rights 
violations, and the urgent need for a ceasefire.
    Then 3 weeks ago, I traveled with fellow committee member 
Chris Van Hollen to Sudan as well as to the UAE and had very 
constructive meetings in Khartoum but also visited the Um 
Rakouba refugee camp at the eastern border of Sudan, a refugee 
camp filled overwhelmingly by Tigrayan refugees and heard 
firsthand about the horrors this conflict has inflicted on the 
Ethiopian people.
    Now in its seventh month, this conflict is estimated to 
have killed thousands and left as many as 6 million in 
desperate need of aid, and as we have heard from the witnesses, 
rape and other forms of sexual violence are widespread and 
systematic.
    After months of intense diplomatic efforts, I support the 
Biden administration's decision to apply visa restrictions on 
all who are fueling the violence in Tigray.
    So, Ambassador, I want to talk, if I can, with you about 
the status of Ethiopia's transition. Many of us were very 
encouraged by Prime Minister Abiy's initial rise and initial 
opening of space for civil society, the release of political 
prisoners, the allowing of banned political parties to 
participate, and his rise to power was facilitated by years of 
widespread protests against government policies and brutal 
repression.
    He shared an inspiring vision of Ethiopia that inspired 
people in his country and around the world. The protest 
movement that, largely, brought him to power was led by young 
men in Oromia, many of whom are now in prison or who have 
joined armed groups.
    How would you assess Prime Minister Abiy's vision of the 
transition compared with its current reality on the ground?
    Ambassador Godec. Thank you, Senator, and it is a pleasure 
to see you again as well.
    We, certainly, share the view that when Prime Minister Abiy 
came to power he presented a vision that was attractive and 
hopeful of opening up the country, of expanding democracy, of 
giving people more rights.
    Unfortunately, the implementation of that has not met, I 
think, all of the hopes. We are deeply concerned about the 
closing of the political space, the reality that many 
politicians have been arrested, some are in prison, that there 
have been--while there was some opening of the media that there 
continues to be significant issues with reporters being jailed, 
international reporters, such as Simon Marks, being expelled 
from the country.
    There are significant issues in the implementation of this 
vision, which is why we believe, at this point, the only path 
forward is an inclusive dialogue that involves all the parties.
    This election, which is sure to take place, is one thing, 
but we need the dialogue to make progress.
    Senator Coons. Two more questions, if I might, given my 
limited time.
    Ms. Charles, in your assessment, is the humanitarian 
situation in Tigray getting better or worse, and are Ethiopian 
authorities becoming better or worse partners in addressing the 
ongoing humanitarian crisis?
    Ms. Charles. First of all, thank you for your continued 
engagement on this and your travel in March. I think after your 
visit and high-level engagement from others in the 
Administration, we did see some progress, including the lifting 
of regulations that required our partners to get permission to 
travel in Tigray.
    We continue to see access restrictions from the Government, 
critically, around visas and importation of communication 
equipment that is necessary for our partners to scale and 
maintain operations in a very insecure environment.
    Senator Coons. Thank you. Last question.
    Ambassador Godec, in March, I met a Prime Minister who was 
charismatic and compelling, who had a forceful vision, and who 
reassured me, made a commitment to me and to our President, 
that Eritrean troops would leave Ethiopia and Tigray and, in 
fact, he promptly flew to Asmara, met with Isiais, and said 
that he had demanded that Eritrean troops leave.
    It is now nearly June and there has been no progress I am 
aware of towards meeting that commitment, and reports just 
broke this week that, jointly, Eritrean and Ethiopian soldiers 
have forcibly rounded up and detained more than 500 young men 
and women from IDP camps in the area of Shire.
    What is your assessment of how closely Ethiopian and 
Eritrean security forces are coordinating, and what 
accountability would you expect if those detained folks are 
harmed and not released?
    Ambassador Godec. Our assessment, Senator, is that the 
Ethiopian and Eritrean forces are cooperating very closely up 
in Tigray, and it is, obviously, a source of serious concern.
    This latest report that people were detained--IDPs were 
detained--is extremely grave. We have already raised this with 
the Ethiopian Government. The U.N. has raised it with them.
    Obviously, if these individuals are harmed it is 
unacceptable. It is absolutely unacceptable and, you know, we 
will continue to be very forceful on this point.
    Senator Coons. Mr. Chairman, your editorial lays out a 
clear series of next steps that might well be taken if this 
situation continues to deteriorate.
    It is my real hope that Prime Minister Abiy will yet hear 
the offers of the world community and the United States to work 
together, to declare a ceasefire, to resolve the humanitarian 
crisis, to deliver accountability for crimes against humanity 
that have been committed by a range of parties and step back 
from a conflict that, I think, threatens the entire future of 
Ethiopia.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, and thank you for your good work 
in this regard.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman. Thank you to both 
of you for your work and appearing before the committee today.
    Ambassador, let me thank you for raising in response to 
Senator Coons' general question the specific issue related to 
press freedom.
    Senators Cardin, Leahy, and myself have raised this in 
several different ways and, of course, we all around the world 
stand for the idea that no government should curtail the right 
of the press to be able to tell objective stories about what is 
happening on the ground but, in particular, in Ethiopia and 
Tigray.
    We depend on the ability of journalists to be able to 
translate to the world what is happening and to be able to 
inform us as to the extent of the atrocities. Appreciate you 
continuing to focus on that question.
    I wanted to drill down, Ms. Charles, on one specific issue, 
and I do not know if it has been raised--forgive me if it has 
been--on the humanitarian front, and that is the Ethiopian 
Government's refusal to provide visas to international 
humanitarian staff and parties that are trying to get into 
Tigray.
    Just wanted to get an update as to whether we foresee any 
progress in getting more aid workers into Tigray and what are 
the roadblocks that are standing in the way of these requests?
    Ms. Charles. Thank you for that question.
    We continue to ask for extended visas for humanitarian 
workers--6-month visas--as well as allow for the importation of 
critical communications equipment.
    Both of these items are very important when operating in 
such a difficult and complex environment, as we see in Tigray, 
and we have not yet seen any progress from the Government of 
Ethiopia on either of those requests, in spite of it being 
raised at the highest levels and consistently over the last 
several months.
    Senator Murphy. What is the consequences of not being able 
to get a greater flow of willing humanitarian organizations? I 
mean, what a triumph that there are organizations that are 
willing to go into these areas and help people despite the 
risks. What are the consequences of these visas not being 
granted?
    Ms. Charles. Well, the consequence of continued obstruction 
by all parties, including the Government of Ethiopia, is that 
we will be facing the first widespread famine in Ethiopia since 
the 1980s.
    We need the Government of Ethiopia to cooperate with our 
humanitarian partners, to allow for the scale up of assistance 
that is necessary to avert the worst.
    Senator Murphy. Mr. Godec, I just was hoping that you might 
talk to us a little bit about the influence of Gulf nations, 
the UAE, and the Saudis. Obviously, the UAE has been an 
important player, probably highlighted by the 2018 
normalization agreements.
    Some, you know, talk has recently been centered around 
their withdrawal militarily from some of their basing 
operations. I would just note that open source reporting 
suggests the UAE is at the same time building up a fairly 
substantial capacity on an island off of Yemen, purpose to be 
determined.
    What can you say about, in particular, the UAE but, more 
broadly, the Gulf's influence, their ability to be a partner or 
a obstruction to the path to peace that we are seeking?
    Ambassador Godec. Thank you, Senator, for the question.
    Since the early days of the conflict in Tigray, we have 
been speaking with both the UAE and Saudi Arabia officials 
about the crisis, about the conflict.
    We have asked them to intervene, to use their influence. 
Both countries have both personal connections and commercial 
connections, and they do have influence, particularly the 
Emirates, and they have expressed to us their concern as well 
about what is happening in Ethiopia and in Tigray.
    We understand they have raised these concerns. We have a 
continuing discussion with them and are hopeful that they will 
continue to press our concerns forcefully.
    I would note that Special Envoy Feltman, when he travels 
next week, will be one of his stops. One place he will be going 
is the Gulf, so he will be stopping in the Emirates and Saudi 
for conversations.
    Senator Murphy. Yeah, I note it was not likely coincidental 
that Senator Coons made a stop in the UAE recently.
    Listen, I think we have plenty of equities at play with the 
UAE right now. Their security--our security partnership with 
them is important to us but it is more important to them, and 
to the extent that they continue to have leverage this is a 
moment that we should press them on this case.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, Ranking Member Risch, 
and thank you to our witnesses for your service in a very 
difficult circumstance. It is depressing to contemplate the 
atrocities in Tigray, the upcoming election, which is of 
questionable legitimacy and could lead to more strife and 
violence.
    The dispute between Ethiopia, Sudan, and Egypt over the dam 
project, that in and of itself--that could also lead to 
military action in an extreme situation.
    Ms. Charles, tell us about the USAID partner worker who was 
killed.
    Ms. Charles. First of all, I thank you for raising that. I 
want to send my condolences out to his colleagues, to his 
family. This was the first time that we have lost a partner in 
Tigray where it was clear that they had identified themselves 
as a humanitarian worker, and we believe that they were 
targeted as such, and it marks, really, a quite concerning and 
tragic turn in the crisis.
    Senator Kaine. You know, sometimes, despite the best 
intention and the best effort, we cannot find the path forward 
to fixing situations that are so deep rooted in cultures that 
are not our own.
    Even when we cannot make headway sometimes in solving these 
seemingly intractable problems, we do stand for American values 
by delivering humanitarian aid.
    So the targeting of a humanitarian worker that is the one 
thing that we can do that shows that we care and we are there 
and we are consistent, even if other efforts are not bearing 
fruit. That means the protection of humanitarian aid workers 
becomes paramount.
    With your previous experience and now at USAID, what can we 
do to provide better protection for our humanitarian workers in 
Tigray, but using it as an example of--in other dangerous 
situations as well?
    Ms. Charles. We have, certainly, worked to scale up the 
security focal points that we have on our Disaster Assistance 
Response Team, I will say back here in Washington, that are 
working very closely with our partners on their security 
planning.
    I want to be very clear, it is the parties to this conflict 
that are making our partners less safe. It is their decisions 
to block and obstruct and harass humanitarian workers, and it 
is one of the reasons why we continue to press on the 
Government of Ethiopia both to send the message to their troops 
about the importance of humanitarian access but also to allow 
for the importation of communication equipment, allow us to 
bring in the right kind of staff and coordination structures to 
provide the kind of security that our partners need.
    Senator Kaine. Thank you. Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    I want to tell Ms. Charles that I expressed the sympathies 
of the committee to our USAID Administrator, Ambassador Powers, 
on behalf of all. I think following up on Senator Kaine's 
questioning, the death of anyone is something that we are 
concerned greatly about.
    The death of an aid worker, an American aid worker, from my 
perspective is a high crime, and at the end of the day, it will 
only make it more difficult for us to do what is necessary to 
try to help Ethiopia out of the path that it is in.
    In that regard, let me ask you how should the fact that the 
Government of Ethiopia is a party to the conflict change how 
the international community engages with it relative to both 
protection needs and the delivery of aid in Tigray?
    Ms. Charles. Thank you again for that, Senator Menendez.
    I do want to just quickly clarify while there--it makes the 
death no less tragic--it was a local Ethiopian staff member, 
not an American aid worker, that was killed. No less----
    The Chairman. Equally as tragic.
    Ms. Charles. No less tragic, and we, certainly, are 
working, again, with our U.N. partners, with our NGO partners, 
to develop independent humanitarian--independent programs 
driven by humanitarian need and, really, demanding from the 
Government of Ethiopia and all parties to the conflict that 
they allow for that unhindered humanitarian access.
    The Chairman. So how--but how do we--well, okay, so we are 
actively engaged in urging the Ethiopian Government to do this, 
but if the Ethiopian Government continues to be part of the 
challenge in the delivery of aid, is there any efforts--is 
there any ways in how we deliver that aid to circumvent them or 
is that impossible?
    Ms. Charles. I think we, certainly, are pursuing any number 
of methods to deliver assistance. We do not deliver assistance 
in Tigray through or with the Government of Ethiopia. We 
deliver it independently.
    Of course, the Government of Ethiopia has a lot of control 
in Tigray over our ability to move freely, our ability to bring 
the right staff and equipment in, and we continue to press for 
them to do that unhindered.
    The Chairman. Ambassador Godec, Tigray is, rightly, the 
focus of a lot of our attention at the moment, but I am also 
worried about violence and atrocities in other regions of 
Ethiopia.
    Civilians, some communities, but not limited to Ethiopia's 
two largest--the Amhara and Oromo have been a target of violent 
attacks in recent months and years.
    What accounts for this specific violence?
    Ambassador Godec. Thank you, Mr. Chairman.
    So there is inter-communal, inter-ethnic violence in many 
areas across Ethiopia. There is a number of drivers of this 
conflict. Some of them are boundary disputes. Some of it is 
related to conflict over pastoral lands, areas.
    There is a number of drivers to this. We do have a number 
of programs run mostly through USAID and OTI to help address 
some of the conflicts that are out there.
    Frankly, the lifting of--you know, in the recent years of 
some of the restrictions that were in place have had the 
perverse effect of, like, allowing some of this to boil up, and 
what is critical is that the Government itself take steps, 
again, to address the conflicts between these communities.
    We can, through our programs, help. A broader effort does 
need to be really initiated and it needs to be real and it 
needs to be serious if these conflicts are going to be brought 
to an end to address these long-standing disputes.
    The Chairman. I understand that Senator Booker is with us 
virtually.
    Senator Booker. Yes, Mr. Chairman.
    The Chairman. Please proceed.
    Senator Booker. Thank you so much. I am grateful for this 
hearing and for the time the State Department has spent with me 
on Horn of Africa issues.
    If I could just jump right in. It has been really horrific 
the reports that I have been reading and hearing about violence 
and sexual violence against women and girls, girls as young as 
8 years old.
    It has been gruesome to hear and, frankly, it is coming 
from a number of different forces, not just the Eritreans, 
these accusations at least, but the NDF as well as Amhara.
    I just want to know from both of you, if I can, what are 
your thoughts about our ability to deal with this, the trauma 
and violence and the survivors of this trauma and violence?
    Obviously, we talk a lot in this hearing about food aid and 
other humanitarian aid, but the scale of the accusations makes 
me believe that our Government and aid agency should be 
thinking about that as well.
    Ms. Charles. Thank you for that question, Senator Booker.
    It is a top priority of our humanitarian response to 
respond to the--what you rightly characterized as just horrific 
incidents of gender-based violence as part of this conflict.
    So we are working with partners to train social workers, 
provide safe spaces for women and girls, psychosocial support 
and counseling for survivors of gender-based violence.
    Senator Booker. Ambassador, would you please give me some 
input as well?
    Ambassador Godec. Senator, let me just say that, certainly, 
from my perspective as well these reports are horrifying. The 
Administration does raise the reports of gender-based violence, 
rape, gang rape, regularly and at top levels with the 
Government.
    I would note that Ambassador Pasi was recently in an IDP 
camp in Tigray and personally spoke with some of the victims of 
this violence. She took their graphic and horrible stories back 
to the Prime Minister and other officials in the Government 
just to stress the importance of addressing this really 
terrible situation.
    So it is something we are very much focused on and working 
to, hopefully, stop.
    Senator Booker. Ambassador, if I could stay with you for a 
second. I know one of my previous colleagues asked a bit about 
the influence of the UAE, Qatar, Saudi Arabia, in the region, 
and I am wondering if you can just take a couple steps with 
more detail for me about, in general, are our efforts and 
theirs in conflict?
    Do you see them as a force that is making a greater 
positive influence or making the situation more difficult? 
Obviously, these are some of our allies, and I am just curious 
of your overall take on coordination and influence in the 
region.
    Ambassador Godec. Thank you, Senator. I do think that they 
have significant influence in the region, given their, again, 
personal connections, the commercial connections, that they 
have got, the investments that have been made.
    Certainly, the Emiratis have, you know, been involved in 
negotiations, for example, previously, to some degree 
successfully. They have also sought to engage on the al-Fashaga 
border dispute, although in the last few days they have 
indicated they are pulling back from that.
    So they have played an important role. What is critical, I 
think, is that they use all of the influence that they have got 
in order to help to bring the Tigray conflict to an end and, 
hopefully, also to address the other challenges that Ethiopia 
faces, that they are clear in their communications with Prime 
Minister Abiy and other officials in the Government about the 
concerns that we have, and I just assure you that we are 
talking with them in detail constantly at this point about 
doing that.
    Senator Booker. Ambassador, just if I can keep you in my 
column for a little bit longer just to ask you, we are heading 
into this period where it seems to me, unless you give me more 
information, that the June 21 elections in Ethiopia are going 
to go forward, even though there is credibly a lot of concerns 
with the ability for those elections to be done, and I know in 
the Tigray region that is not going to happen.
    I guess I am wondering, besides just calling for free and 
fair elections is there anything we can do in these--in this 
run-up--3- or 4-week run-up--to better ensure that there would 
be credible elections taking place?
    Just can you give me some of your general assessments of 
your concerns that you might have about the elections as well?
    Ambassador Godec. Thank you for the question, Senator.
    We do have many concerns about the elections. They are 
going to take place in an environment where there have been 
significant political limitations. Also, there are big 
logistical challenges around the elections.
    As I mentioned earlier, the IRI NDI report lays those out. 
I think we have been clear in our communications with the 
Government, with the national election board, about those 
concerns.
    There are specific steps that could be taken in a 
logistical sense that might help in the next 4 weeks. I think 
it is going to be very difficult to really get all the way that 
the country needs to get and to hold fully free, fair, and 
credible elections.
    That said, again, we--you know, withholding judgment and we 
will continue to urge progress on those challenges that are out 
there before the elections.
    Let me just emphasize, again, what is really critical here 
is that there be an inclusive dialogue, ultimately. One 
election is not going to solve the problems of Ethiopia.
    If there is not a understanding reached among the various 
communities about the way forward, a democratic way forward, 
there is going to be real trouble, in our view.
    Senator Booker. I want to say thank you. My time is 
expired.
    Just two points I want to make. Number one, one I just 
appreciate the State Department's willingness to meet with me 
and brief me independently on these issues. We are in the midst 
of--there is just a lot of strike points in this area that 
concern me.
    I know the ranking member already asked about the dam, the 
GERD dam, and, clearly, all the way to what is going on in 
Tigray.
    I think the most stunning thing that was said during this 
hearing is the prospects for the first time since, I guess, the 
eighties, to have us have widespread famine should we not be 
able to get humanitarian aid into the region.
    We are really teetering on the verge of just a catastrophic 
humanitarian crisis in the region from Sudan, South Sudan to 
Ethiopia to Eritrea. We are just--and Somalia. This is a lot of 
challenges in this area.
    So I am just--hope that--I know that with Senator Menendez 
we will continue to focus on this area, and I am just really 
hopeful that I can continue the dialogue with the State 
Department to see ways that this committee could be doing more 
to keep focus on that area of the world and see some--a way out 
of what could be a true nightmare for all of humanity.
    Ambassador Godec. Senator, we certainly agree that Ethiopia 
is teetering on the brink at the moment, that alarm bells are 
going off and that we need all hands on deck to address the 
challenges.
    On behalf of the State Department, you know, I am, 
certainly, happy--I know my colleagues are--to remain closely 
engaged with you, personally, Senator, any member of this 
committee, either, again, individually or the committee as a 
whole. You have a critical role to play, and we look forward to 
working with you.
    Senator Booker. Thank you, Ambassador. Thank you, Senator 
Menendez.
    The Chairman. Thank you, Senator Booker. My understanding 
is I have no colleagues on either side who are with us 
virtually. Is that correct?
    [No response.]
    The Chairman. As I am not hearing anybody, I assume so. I 
just have then two final questions.
    Ambassador, do we have a regional strategy for the Horn of 
Africa that no longer hinges necessarily on a close partnership 
with the Ethiopian Government, even as we continue to support 
the Ethiopian people?
    Ambassador Godec. Senator, the Horn of Africa is, clearly, 
an increasingly significant region and its stability and 
security really critical, obviously, to the people who live 
there, but there are implications throughout the Red Sea 
region.
    There are implications even up to the Mediterranean and 
across the Indo-Pacific area. Ethiopia has long been a kind of 
a lynchpin, a central with its 110 million people and it is 
been an important partner.
    It is at the heart of the region. Its stability is 
essential to peace and security, which is, obviously, one of 
the reasons why we are so focused on trying to address the 
challenges there.
    Now, the Administration, obviously, has been hard at work 
trying to address the challenges in Ethiopia, but also looking 
at the entire region and how progress can be made, what the 
linkages are between the various conflicts, what the issues are 
across boundaries.
    We are still early in the Administration. I want to assure 
you that there is a robust conversation going on about how to 
bring all of this together in a way that makes sense.
    The Chairman. Well, I appreciate that. Here is our problem, 
and it is not only unique to the Horn of Africa. Very often we 
pursue our strategic and national interests vis-a-vis a country 
and that country does not pan out to be what we aspire and 
expect it to be, and if we wait until it is no longer the 
country we hope it to be, then we are in a world of hurt.
    So while I am not for abandoning our aspirations for 
Ethiopia, I am for being strategic in planning to think about 
what will happen if that falls apart for a short or longer 
period of time, and I think we have enough challenges in that 
regard. I commend that to your attention. When I speak to the 
secretary I will do the same.
    Now, Ethiopian contributions to U.N. and A.U. peacekeeping, 
they are important, but we need to ensure that those who are 
implicated in atrocities are not rotated into peacekeeping 
missions.
    How do we intend to address that issue?
    Ambassador Godec. Thank you, Senator, for the question.
    We are in full agreement that it is very important that 
Ethiopian troops who are implicated in atrocities not be 
participating in peacekeeping operations. We are actively 
looking at that issue and we are working to address it. It is a 
serious concern, and we are on it.
    The Chairman. Well, part of the process of being able to 
address it is to identify those who have been involved in such 
atrocities and to name them so that we do not have their 
atrocities extend beyond Ethiopia and other parts of the world, 
and I think that is critically, critically important.
    Then, finally, I will make a comment. It is not a question. 
I have spoken to the Egyptians on more than one occasion on 
this issue at their behest.
    I have a real sense that if the GERD issue is not dealt 
with in a way that assures them of their concerns about the 
Nile flowing into what would be the heart of their water supply 
in Egypt that they will do what is necessary.
    I do not like red lines, but they have suggested that they 
have red lines and I take them at their word that they have red 
lines. Not that they are desirous of doing that. They also have 
a very strong expression that they hope to have a resolution 
peacefully, but that they have their own red lines.
    I hope that we are engaging in that very robustly because 
the last thing we need, in addition to everything that is going 
on in Ethiopia, in addition to the possibility of a famine, to 
the sexual violence that is taking place, is to then have a 
military conflict over the GERD.
    So I just seriously hope we are fully engaged and 
understand where the parties are and how serious some of them 
are of purpose.
    Ambassador Godec. Senator, I can assure you that the 
Administration up to the President are engaged on this matter, 
very concerned about it, and doing everything we can to resolve 
it.
    We certainly agree that any sort of conflict over the GERD 
or al-Fashaga would be catastrophic for the region and it must 
be avoided. We are working hard to prevent any such conflict.
    The Chairman. All right.
    Well, this hearing record will stay open to the close of 
business tomorrow.
    With the thanks of the committee for your testimony and 
your service, this hearing is adjourned.
    [Whereupon, at 12:44 p.m., the committee was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


         Responses of Ambassador Robert F. Godec to Questions 
                    Submitted by Senator Ben Cardin

                          Ethiopian Elections

    I wrote to Ambassador Feltman last month--along with Senators 
Kaine, Markey, and Booker--expressing our serious concern over the 
current trajectory of Ethiopia's election process given the massive 
internal displacement, rising ethnic tensions, closure of political 
space, and technical delays. The response that we received from the 
State Department said that ``the Administration agrees there needs to 
be peace, reconciliation, and tolerance throughout Ethiopia in advance 
of that process.''

    Question. What are the specific reforms that need to happen in 
order to facilitate a credible election in Ethiopia, what are we doing 
to help achieve them, and can they realistically take place by the new 
June 21 election date?

    Answer. The Ethiopian Government should take immediate steps to 
ensure a more open environment that is conducive to robust political 
competition and address several serious logistical challenges if the 
country is going to achieve elections that approach a level of 
credibility acceptable to the majority of the Ethiopian population. 
Given the short time frame, we assess these elections are unlikely to 
be free and fair by international standards. On the political front, 
the Ethiopian Government will have to end its restrictions on the media 
and opposition political party activities and put a stop to the 
partisan activities of regional and local governments that prevent fair 
political participation. Logistically, the National Electoral Board of 
Ethiopia (NEBE) is under-resourced and behind schedule to organize 
elections. Additionally, Ethiopia will need to work quickly to heal the 
ethnic divisions that have significantly worsened in recent years, 
partly as a result of the Ethiopian Government's own policies to close 
political space.
    We have stressed to Prime Minister Abiy the urgent necessity of 
beginning a broad-based, inclusive dialogue with civil society, 
political parties, and other stakeholders to develop a consensual way 
forward for Ethiopia. We have been clear both publicly and privately 
about our serious concerns about the political environment in which 
these elections will take place. We have also provided significant 
support to the National Electoral Board of Ethiopia (NEBE) to help them 
hold these elections.

    Question. Should Ethiopia hold elections in a manner that does not 
meet international standards for freedom and fairness, is the 
Administration prepared to publicly reject their credibility?

    Answer. During meetings with Prime Minister Abiy, Special Envoy 
Feltman and other senior U.S. officials informed the Ethiopian 
Government that the United States will be watching these elections 
closely. Both in the lead-up to and after these elections, we will be 
looking at every option to continue to support Ethiopia's democracy and 
social cohesion, including by coordinating with like-minded governments 
in Africa and around the globe. This will include continuing to push 
for a broad-based and inclusive national dialogue to address the 
nation's challenges as well as highlighting concerns and deficiencies 
in the electoral process that the Government of Ethiopia must address 
to meet international standards in future electoral cycles.

    Question. What is our plan for addressing likely unrest and 
violence surrounding and following the elections?

    Answer. We are deeply concerned by the escalating violence and the 
hardening of regional and ethnic divisions in multiple parts of the 
country. President Biden's May 26 statement reinforced points we have 
raised with the Ethiopian Government on several occasions. We are 
urging the Ethiopian Government to ensure political space for all 
parties and are clearly conveying that voter, political party, and 
civil society suppression, or intimidation will not be tolerated. In 
particular, we have stressed the need to refrain from violence and 
protect human rights during the elections and for all of Ethiopia's 
political and ethnic groups to work toward dialogue. Following the 
national elections, we will press Ethiopia's leaders to work quickly to 
start an inclusive dialogue with civil society, political parties, and 
other stakeholders to develop a consensual way forward for Ethiopia. We 
also plan to lead international efforts to engage regional governments, 
like minded partners, and multi-lateral organizations to increase 
pressure on the new Government to support this effort.

                 Human Rights and Democracy in Ethiopia

    Like Special Envoy Feltman has said, the crisis in Tigray is 
symptomatic of broader challenges to Ethiopia's democratic transition. 
Over the last year, I have been closely following reports of 
ethnically-targeted massacres, security force abuses, political 
repression, and internal displacement across Ethiopia. The letter that 
I received from the State Department in response to my outreach to 
Ambassador Feltman acknowledged that ``if left unaddressed, these 
divisions will continue to undermine the stability of Ethiopia and the 
broader Horn of Africa.''

    Question. Investigations are an important tool for reconciliation, 
but we can't rely on the Ethiopian Government to investigate 
allegations in which it is implicated. What steps is the Administration 
taking to promote the independent investigation of human rights 
violations throughout Ethiopia?

    Answer. Ethiopia will not be able to overcome its ethnic divisions 
without justice and accountability for the terrible crimes committed by 
all parties to the conflict, increased rule of law, and dedicated 
efforts to promote reconciliation, a cohesive national identity, and a 
common collective memory about the violations and atrocities that have 
taken place. We have prioritized support for a transparent and 
independent investigation of human rights abuses. This has included 
assistance to the Ethiopian Human Rights Commission (EHRC). Our support 
has helped scale up the capacity of this organization and its work, 
including by providing equipment and salaries.
    Ensuring the independence of these human rights investigations has 
also been an important part of our diplomatic messaging to the 
Government of Ethiopia. Ethiopian officials who stand in the way of the 
work of the joint investigation between the EHRC and the U.N.'s Office 
of the High Commissioner for Human Rights (OHCHR) would likely fall 
into a category of those who would ``be responsible for, or complicit 
in, undermining resolution of the crisis in the Tigray Region'' and 
thus, potentially face visa sanctions, as announced by the Secretary of 
State on May 23. We are in regular communication with OHCHR regarding 
access and cooperation by the Government of Ethiopia, as well as steps 
the international community can take to promote the independence of the 
joint investigation.

    Question. As continuing human rights abuses across Ethiopia come to 
light, including mounting attacks against ethnic Amhara and security 
force abuses against ethnic Oromos, how will we strive to hold their 
perpetrators accountable?

    Answer. President Biden's May 26 statement noted that we are deeply 
concerned by the escalating violence and the hardening of regional and 
ethnic divisions in multiple parts of the country. The President's 
statement reinforced points we have raised with the Ethiopian 
Government on several occasions, including the need for all of 
Ethiopia's political and ethnic groups to end ethnic-based violence and 
work toward reconciliation. We have also been in close contact with 
political and ethnic leaders in the Amhara, Oromia, and other regions 
to stress the need for their leadership to stop ethnic-based violence 
in Ethiopia. We also continue to call on Eritrean and Amhara forces in 
the Tigray region to adhere to a ceasefire and withdraw. We have urged 
the Ethiopian Government to hold perpetrators of violence accountable 
through a transparent and strong legal process.
    Additionally, we have pushed for an inclusive national dialogue 
that provides a voice for civil society, opposition parties, and other 
stakeholders to participate in the decision-making process. This 
process, if successful, is the best path towards a more peaceful 
Ethiopia where all people are protected from human rights abuses 
regardless of ethnicity or where they are in the country. We are also 
looking into ways to support comprehensive transitional justice that 
addresses victims' needs, acknowledges harm, and promotes 
accountability and reconciliation.

    Question. I appreciate the Administration's commitment to 
supporting a national, inclusive dialogue to resolve political and 
ethnic tensions in Ethiopia. How will we ensure that this process 
commences swiftly and that all the relevant stakeholders are at the 
table?

    Answer. President Biden's May 26 statement underscored the need for 
all stakeholders to commit to an inclusive dialogue. To ensure this 
process takes place, we will continue to press political, ethnic, 
religious, and civil society leaders to participate in this process. We 
stand ready to support dialogue processes, provided they are credible 
and have the necessary participation to ensure outcomes that can help 
Ethiopia begin to heal from the ongoing conflicts in various parts of 
the country over the past several months, while promoting 
accountability for human rights violations and addressing long-standing 
historical grievances.
                                 ______
                                 

                Responses of Sarah Charles to Questions 
                    Submitted by Senator Ben Cardin

    Question. Humanitarian Access in Tigray: Humanitarian access has 
evolved over the course of the Tigray response, but seems to be 
deteriorating again despite halting gains in the spring. Specifically, 
we've heard extremely disturbing accounts of aid deliveries being 
blocked and diverted, and aid workers being harassed, attacked, and 
even killed.
    What does the Ethiopian Government have to say about these 
impediments to humanitarian access? In particular, what are they doing 
about the obstruction and diversion of aid?

    Answer. The Government of Ethiopia (GoE) continues to deny that 
humanitarian access issues exist. In March, the Ministry of Peace and 
the Tigray Regional State Interim Administration issued letters to 
humanitarian organizations to facilitate their passage at checkpoints. 
These access approval letters were not recognized by Eritrean or Amhara 
Regional armed actors at many checkpoints, and failed to resolve access 
issues. As of May, the GoE only requires notification from humanitarian 
organizations to access Tigray region; Amhara Regional Authorities 
stated these access letters are no longer required for movement in 
disputed areas under Amharan Regional control. Despite these access 
commitments, Ethiopian National Defense Force (ENDF), Eritrean Defense 
Force (EDF) and Amhara Regional Forces continue to impede access by 
blocking humanitarian workers and cargo at armed checkpoints on an ad 
hoc basis. Harassment continues at checkpoints throughout the Tigray 
region with humanitarians facing searches of vehicles and personal 
belongings, verification of paperwork, intimidation, threats of 
violence or detention, and occasional demands for local taxes to be 
paid to gain entry.

    Question. What is the justification supplied by the Ethiopian 
Government for refusal to grant 6-month visas and communications 
equipment like satellite phones to humanitarian aid workers in Tigray?

    Answer. The GoE initially issued 1-month visas to humanitarian 
workers and Government officials have made varied and sometimes 
contradictory claims regarding the possibility of extension, including 
that extensions will be issued on a case-by-case basis or specifically 
to USAID partners. The GoE has also stated that extending visas for 6 
months is against the law and thus not possible.
    The GoE has also stated that the issuance of satellite phones 
outside the control of the GoE would create national security risks for 
them. The GoE denies reports that it is obstructing telecommunication 
equipment. After months of complaints that the Government was 
restricting the import and use of communications equipment by 
humanitarian organizations, the GoE issued new guidance in April 
requiring relief actors to utilize an online customs registration 
portal to obtain clearances for the importation of communications 
equipment. This new system effectively stalled the telecommunications 
process for most applicants.

    Question. What has been the role of the United Nations in securing 
humanitarian access in Tigray, and how are we engaging with the U.N. to 
improve that process, especially with regards to ensuring the safety of 
humanitarian workers?

    Answer. The U.N. plays a critical role in ensuring the safety of 
humanitarian workers through advocacy at the highest political levels 
to push humanitarian protections, civil-military coordination on the 
ground in Tigray, and by leveraging its institutional resources and 
perceived neutrality to support humanitarian workers. The U.N. has 
established the Humanitarian Access Working Group that discusses real-
time movement and access issues and coordinates actions to facilitate 
the delivery of humanitarian goods and services
    The U.S. is engaging with the U.N. on advocacy efforts by 
continuing to push for a rapid system-wide scale-up to ensure 
sufficient leadership and civil-military expertise on the ground, 
including a strengthened role for the U.N. Office for the Coordination 
of Humanitarian Affairs (OCHA) in planning and communicating movement 
in the region. USAID leadership is also coordinating closely with U.N. 
Emergency Relief Coordinator Mark Lowcock to ensure alignment of 
messaging to key stakeholders around the need for humanitarian worker 
safety.
    U.N. civil-military coordination infrastructure in Tigray supports 
humanitarian partners by coordinating, deconflicting, and communicating 
the movement of humanitarian assistance with relevant local actors. The 
U.S. supports these efforts through the placement of a civil-military 
coordinator on USAID's Disaster Assistance Response Team (DART), who 
liaises with key national and regional stakeholders, and by providing 
funding for the full implementation of the U.N. Department for Safety 
and Security (UNDSS) Saving Lives Together Framework.
    The U.N. is positioned to mobilize resources and leverage its 
presence to support humanitarian protections. For example, as 
checkpoints and roadblocks manned by armed actors have increasingly 
become flashpoints for aggression and harassment of humanitarian staff 
and drivers, OCHA has helped organize UN-NGO convoys to facilitate 
`safety in numbers' in support of humanitarian NGO staff. Additionally, 
given the horrific accounts of gender-based violence and significant 
protection concerns, international U.N. staff in the region afford a 
positive secondary effect of protection by presence. The U.S. 
Government continues to advocate for a rapid scale-up of U.N. 
coordination in the region, including increasing numbers of qualified 
international staff, to increase protections for humanitarian workers 
and civilians alike.

                                  [all]
</pre></body></html>
